Office of the Inspector General                                                 Inspection Report



TABLE OF CONTENTS
EXECUTIVE SUMMARY .............................................................. 1

BACKGROUND .............................................................................. 3

OBJECTIVE, SCOPE, AND METHODOLOGY ....................... 6

FINDINGS ........................................................................................ 8
    COMPLIANCE WITH THE ECONOMY ACT AND COST
    RECOVERY ………………………………………………………........8

    CONTRIBUTIONS TO CORE BUSINESS, STRATEGIC
    ALIGNMENT, AND ASSOCIATED RISKS………………….............8

    PROJECT DOCUMENTATION ................................................... 15

RECOMMENDATIONS ............................................................... 16


APPENDIX

MEMORANDUM DATED DECEMBER 5, 2007, FROM TOM KILGORE
TO ROBERT E. MARTIN




Inspection 2007-510I
Office of the Inspector General                                          Inspection Report



EXECUTIVE SUMMARY
River System Operations and Environment (RSO&E)i Internal/External
Contractual Services' program, operated by Resource Management
(RM), provides services/technologies to Tennessee Valley Authority
(TVA) and external customers. In 1996, RM became a self-funded
organization (i.e., revenue must cover expenses). In fiscal year (FY)
2006:

•     Revenues generated totaled about [Redacted] (i.e., [Redacted]
      from external customers and about [Redacted] from internal TVA
      work).
•     Work for other federal agencies totaled about [Redacted] or
      95 percent of external revenue.
•     Work for the Department of Defense (DOD) alone accounted for
      [Redacted] or 93 percent of the external revenue.

RM is responsible for (1) business development (including bid and
proposal preparation), (2) product development activities, and
(3) business coordination of external projects and operations. Our
review covered the external contractual services' work being
conducted by RM. Our objectives during this review were to
determine if (1) work that is being performed by RM is in accordance
with applicable policies and procedures and (2) costs associated with
TVA employees working for outside entities/agencies are adequately
recovered. In summary, we found:

•     The majority of FY 2006 RM External Contractual Services'
      revenue was generated from work for other federal agencies, and
      the projects we selected for review appeared to be in compliance
      with the Economy Act of 1932, as amended (31 USC 1535). In
      addition, direct costs and approved overheads are captured on a
      project-specific basis and automatically billed to ensure cost
      recovery.
•     The work performed is not a TVA core business and does not
      appear to align directly with TVA's Strategic Plan. RM stated that
      the work is consistent with the spirit and historical enablement of
      the TVA Act and is implicitly included and serves as an enabler for
      many parts of TVA's new Strategic Plan.
•     The work being performed increases TVA's monetary, reputational,
      and environmental risks. RM stated, however, that they continue
      to improve the risk profile for the RM External Contractual
i
    With recent TVA reorganizations, some organizations in RSO&E became the Office of
    Environment and Research. This included the RSO&E External Contractual Services’
    program.
Inspection 2007-510I                                                               Page 1
Office of the Inspector General                             Inspection Report


    Services' efforts through completion of high-risk projects, through
    their strategy on the nature of future work, and through actions and
    processes to mitigate financial risks, including purchasing
    insurance and incorporating written indemnity clauses in certain
    contracts.

•   For five of the 14 projects reviewed, a contract could not be
    provided. In addition, key decisions required by RM policies and
    procedures were not documented, or documentation was
    incomplete.

Based on the risks and the lack of a clear direct nexus to TVA's core
business as discussed above, our draft report recommended that the
President and Chief Executive Officer (CEO) terminate the RM
External Contractual Services' program. Management stated in their
comments to our draft report that RM plans to continue the program
but will exit chemical agent work as it carries the greatest risk potential
for TVA. Management also plans to (1) further review the risks
associated with the program and update TVA's risk assessment as
needed and (2) improve program documentation as TVA implements
its new business management software in FY 2008.

We agree with management that the chemical agent work carries the
greatest risk potential for TVA. Since eliminating the chemical agent
work once the current contractual commitments with DOD expire will
greatly reduce the risks of the program, we have revised our
recommendation. We now recommend that the CEO (1) eliminate
chemical agent work once current contractual commitments expire
and (2) direct RM officials to maintain adequate supporting
documentation of projects and decisions made in regard to RSO&E–
SPP–19.1, including maintaining contracts and proof of funding or
Military Interdepartmental Purchase Requests. (See the Appendix for
complete response.)




Inspection 2007-510I                                                  Page 2
Office of the Inspector General                                          Inspection Report



BACKGROUND
Resource Management (RM) operates River System Operations and
Environment's (RSO&E)1 Internal/External Contractual Services'
program. RM provides services/technologies to Tennessee Valley
Authority (TVA) and external customers.2 RM's specific
responsibilities include:

•     Business development (including bid and proposal preparation).
•     Product development activities.
•     Business coordination of external projects and operations.

In fiscal year (FY) 2006, revenues generated totaled about
[Redacted].


               Revenues from RM Services to External & Internal
                          Customers - FY 2006
                         Total Revenue [Redacted]

                                                          Internal
                                                            21%
                                                           [Redacted]
                    External
                      79%
                     [Redacted]



RM's stated mission “is to support RSO&E's efforts to make a
contribution to the financial success of TVA.” In 1996, RM was tasked
with becoming a self-funded organization (i.e., revenue must cover
expenses) and according to RM, revenue is largely a function of
headcount.




1
    With recent TVA reorganizations, some organizations in RSO&E became the Office of
    Environment and Research. This included the RSO&E External Contractual Services’
    program.
2
    This review focused on the services being provided to external customers.


Inspection 2007-510I                                                               Page 3
Office of the Inspector General                           Inspection Report


As of March 12, 2007, RM's reported headcount was [Redacted],
including management and support personnel. Of this [Redacted]
headcount, there were [Redacted] who showed an official station in
the Tennessee Valley Region.

RM reported that the Internal/External Contractual Services' program
returned [Redacted] to TVA corporate overhead in FY 2006. The
following graph shows RM's reported contribution to TVA corporate
overhead for FYs 2000–2006:

                  RM Contribution to Corporate Overhead

                                  [Redacted]




According to TVA InsideNet, “The RM business is a full-cost recovery,
matrixed business where line organizations across RSO&E,
particularly within Research &Technology Applications (R&TA),
provide the services to fulfill the contractual requirements of the
business.” RM stated they make about [Redacted] proposals per year
and achieve about an [Redacted] percent success rate. As of
December 31, 2006, RM information showed the backlog of
contractual business was about [Redacted], and some current projects
have estimated contract completion dates that stretch into the year
2011. RM reports that it meets the needs of utility, industrial,
government, and resources management sectors of the United States
and foreign markets. RM work has included decommissioning and
decontaminating chemical plants and storage facilities in the United
States and overseas, including Russia.




Inspection 2007-510I                                                Page 4
Office of the Inspector General                                                  Inspection Report


Work for Federal Agencies
In FY 2006, RM's revenue from external customers totaled about
[Redacted], of which work for other federal agencies totaled about
[Redacted] or 96 percent. The Department of Defense (DOD) alone
accounted for [Redacted] or 93 percent of the revenue. TVA's work
for other federal agencies was conducted under the provisions of the
Economy Act of 1932, as amended (31 USC 1535).3 The Economy
Act authorizes an agency to place orders for goods and services with
another government agency when the head of the ordering agency
determines that it is in the best interest of the government and decides
ordered goods or services cannot be provided as conveniently or
cheaply by contract with commercial enterprise.


                       RM External Customers - FY 2006
                        Total External Revenue [Redacted]
                                                       DOE         USDA
                                            EPA                    0.40%
                                                      1%
                               EPRI         1%        [Redacted]   [Redacted]
                                                                                 DOI
                                           [Redacted]
                                2%                                              0.20%
                  Other       [Redacted]                                        [Redacted]
                   3%
                 [Redacted]




                                      DOD
                                       93%
                                    [Redacted]




Previous TVA Economy Act Work
We included in our FY 2007 Audit/Inspection Workplan a review of the
RM External Contractual Services' program based in part on the fact
that in the early 1990s some TVA Economy Act work had received
substantial negative publicity. TVA Office of the Inspector General's
(OIG) and DOD OIG's findings regarding TVA's Technology Brokering
Program (TBP) led to a congressional hearing where the TVA
Inspector General and the President, Resource Group, testified. The
audit reports and congressional hearing prompted the termination of
the program. Our review disclosed no similar problems in the current
program.




3
    Referred to throughout this report as the Economy Act.


Inspection 2007-510I                                                                         Page 5
Office of the Inspector General                            Inspection Report



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objectives during this review were to determine if (1) work that is
being performed by RM is in accordance with applicable policies and
procedures and (2) costs associated with TVA employees working for
outside entities/agencies are adequately recovered. Our scope
included work performed by RM for other agencies/entities during
FY 2006. To achieve our objectives, we:
•   Obtained an understanding of the RM External Contractual
    Services' program's (1) mission and goals and/or (2) key
    processes and procedures, including those pertaining to contract
    award and external billing, by:
    –     Interviewing TVA RM, Procurement, and Chief Financial
          Officer (CFO) personnel.
    –     Reviewing (1) project listings which included contract and cost
          information, (2) a February 2007 program briefing presentation
          presented to TVA executive management, (3) selected project
          and contract documentation, and (4) other RM program and
          project information.

•   Reviewed the following policies and procedures to identify key
    control activities:

    – RSO&E Standard Process and Procedure (SPP) RSO&E—
      SPP—19.1, titled Resource Management Business Process.
            The stated purpose of the SPP is “to manage and maintain
             the RM business, which can be viewed as a series of steps
             beginning with generation of opportunities and ending with
             project completion and closeout, including documentation
             and distribution of lessons learned and client feedback.”
    – TVA Accounting Practice CFO SPP 13.7, titled External Billing
      Process.
            The stated purpose of the accounting practice is “to
             document and communicate the roles and responsibilities,
             processes, controls, and systems associated with
             accounting and billing for external business activities.”
•   Assessed whether work being performed for selected contracts
    involving other federal agencies was appropriately justified under
    the auspices of the Economy Act.




Inspection 2007-510I                                                 Page 6
Office of the Inspector General                                Inspection Report



•   Reviewed TVA's 2007 Strategic Plan and other corporate
    documents to determine if the RM External Contractual Services'
    work is in accordance with TVA's core mission and business and
    aligns with TVA's current strategic actions.
•   Used program, contract, interview, and other information to assess
    the potential risks and benefits of the RM External Contractual
    Services' business.
•   Judgmentally selected14 projects to determine whether the
    Resource Management Business Process was followed. Our
    review included, but was not limited to, obtaining and reviewing the
    applicable contracts, contract supplements, scopes of
    work/individual work plans (IWP), funding documents/credit
    analyses, memorandums of understanding (MOUs), and cost
    estimates. The contract ceiling amounts and FY 2006 revenue
    were as follows:

              Contract            Contract Ceiling   FY 06 YTD Revenue
                  1                 [Redacted]           [Redacted]
                 2                  [Redacted]           [Redacted]
                 3                  [Redacted]           [Redacted]
                 4                  [Redacted]           [Redacted]
                 5                  [Redacted]           [Redacted]
                 6                  [Redacted]           [Redacted]
                 7                  [Redacted]           [Redacted]
                 8                  [Redacted]           [Redacted]
                 9                  [Redacted]           [Redacted]
                 10                 [Redacted]           [Redacted]
                 11                 [Redacted]           [Redacted]
                 12                 [Redacted]           [Redacted]
                 13                 [Redacted]           [Redacted]
                 14                 [Redacted]           [Redacted]
                Total               [Redacted]          [Redacted]

•   Reviewed billing policies and procedures and interviewed RM
    management and CFO personnel to determine if costs are
    captured and billed correctly. RM management and CFO
    personnel explained that all costs are captured and billed
    electronically using the BillOut SubSystem (BOSS). Based on the
    information obtained, we deemed no further fieldwork was
    necessary in regards to billing.

This inspection was conducted in accordance with the “Quality
Standards for Inspections.”




Inspection 2007-510I                                                     Page 7
Office of the Inspector General                                              Inspection Report



FINDINGS
Our review of selected RM External Contractual Services' projects
found (1) work performed for other federal agencies appeared to be in
compliance with the Economy Act and (2) TVA's external billing
process should ensure the recovery of direct costs and overhead.
However, we also noted the RM External Contractual Services' work
(1) is not a TVA core business; (2) does not appear to align directly
with TVA's Strategic Plan; and (3) increases TVA's monetary,
reputational, and environmental risks. In addition, key decisions
required by RM policies and procedures were not documented, or
documentation was incomplete.

COMPLIANCE WITH THE ECONOMY ACT AND COST
RECOVERY

In FY 2006, the majority of RM External Contractual Services' revenue
was generated from work for other federal agencies. Our review of
selected projects found the work appeared to be in compliance with
the Economy Act.4 The Economy Act basically states that another
federal agency can be used for services if it is determined to be in the
best interest of the government, and ordered goods or services cannot
be provided as conveniently or cheaply by contract with commercial
enterprise. We also noted that RM's listing of commercial projects
(i.e., work for nonfederal agencies) showed that the Electric Power
Research Institute and TVA customers were the primary clients.

In addition, TVA policies and procedures should ensure recovery of
direct costs and overheads. Specifically, billing arrangements for
external contracts/agreements and their supplements/revisions are set
up in BOSS, direct costs are captured on a project-specific basis, and
BOSS automatically bills direct costs captured under each project and
applies approved overheads.

CONTRIBUTIONS TO CORE BUSINESS, STRATEGIC
ALIGNMENT, AND ASSOCIATED RISKS
We noted the RM External Contractual Services' work (1) is not a TVA
core business; (2) does not appear to directly align with TVA's
Strategic Plan; and (3) increases TVA's monetary, reputational, and
environmental risks. As stated in TVA's Strategic Plan, “TVA's
mission is to improve the quality of life in the Tennessee River Valley

4
    Our review did not test to determine if work performed for federal agencies was properly
    authorized by the agency in accordance with federal procurement policies.


Inspection 2007-510I                                                                    Page 8
Office of the Inspector General                                               Inspection Report


region through its work in three key areas: energy, the environment,
and economic development. For nearly 75 years, TVA's unique
mission has served as the foundation of its business endeavors,
providing the context for TVA to establish its business objectives and
internal processes.”

•     Energy—TVA supplies reliable, affordable electricity to the
      Tennessee Valley region.
•     Environment—TVA manages the natural resources of the Valley
      for the benefit of the region and the nation.
•     Economic Development—TVA helps to bring jobs to the Tennessee
      Valley and make the economy stronger to benefit the region.

While RM acknowledged that the RM External Contractual Services'
program is not a TVA core business, RM stated the Strategic Plan
does not provide detailed guidance for day-to-day operations, and
their work serves as an enabler for many parts of the plan. RM further
stated that (1) the program aligns with TVA's Strategic Plan in that the
program's contributions to TVA corporate overhead support TVA's
mission to provide affordable electricity to the Tennessee Valley
region and (2) program risks have been adequately mitigated.

Core Business
We noted that RM External Contractual Services' work is not a core
TVA business. Specifically, the work does not (1) involve the
generation or transmission of electricity, (2) relate to environmental
stewardship in the Tennessee Valley, or (3) help bring jobs to the
Tennessee Valley through capital investment.5 While the program
does provide the Tennessee Valley some economic benefit by
providing some jobs and most of the employees still have their official
duty station in the Valley, the majority of the revenue is being
generated outside the region.6 Examples of work performed include:

•     Demolition and disposal activities associated with former chemical
      weapon production facilities, including (1) Rocky Mountain Arsenal
      (Colorado), (2) Pine Bluff Arsenal (Arkansas), (3) Aberdeen
      Proving Ground (Maryland), and (4) Newport Chemical Depot
      (Indiana).

5
    TVA’s Strategic Plan states, “TVA’s economic development growth strategy will focus on
    recruitment and retention of targeted businesses and industries that complement TVA’s
    anticipated load shape, increase job creation and capital investment in the market sectors
    of women and minority-owned companies, and provide technical services and training
    needed to support community and regional development.”
6
    We noted that many of the RM employees working on the projects have been in
    extended/constant travel status and some were relocated outside the TVA region.


Inspection 2007-510I                                                                    Page 9
Office of the Inspector General                            Inspection Report



•   Decontamination of containers with a 25-ton capacity that were
    used to store chemical weapons located in Pine Bluff, Arkansas.
•   Transportation through the Tennessee Valley region and disposal
    of hazardous and nonhazardous waste, including Polychlorinated
    Biphenyls (PCBs).
•   Support in the area of materials management in Tooele, Utah.
    “The Program Manager for Chemical Demilitarization requires
    support in the area of Material Management for establishing PMCD
    level Material Management policies, procedures, and guidance,
    and project level support to the individual project managers in all
    areas of Material Management. The support required by the
    PMCD will include preparation of draft policy documents and
    procedures, coordinating these with the Project Managers and
    PMCD staff, and submitting a final product to the PMCD for
    signature.”
•   Project management of the dismantling of a former chemical
    warfare production facility in Russia. Work was performed by local
    labor.

Although RM confirmed that RSO&E external service is not a core
TVA business, RM stated the work performed is a result of a directive
from Congress and is consistent with the spirit and historical
enablement of the TVA Act. Specifically, RM stated the External
Contractual Services' program was a result of the Energy and Water
Development Appropriations Act, 1996 (Public Law 104-46). We
found the law did not direct any specific program; rather it stated, “The
Tennessee Valley Authority shall, not later than March 30, 1996,
submit to Congress a preliminary plan for funding the environmental
research center from sources other than direct appropriations for the
Tennessee Valley Authority after fiscal year 1996.” RM further stated:

•   TVA's plan, which was submitted to Congress, relied heavily on
    providing TVA's environmental expertise to federal, state, and local
    governments in the United States and to selected international
    customers.
•   The RM External Contractual Services' model is consistent with
    models of other federal entities and it continues to evolve to meet
    the guidance and intent of successive TVA Boards.


Strategic Plan
We noted that the RM External Contractual Services' program does
not appear to align directly with TVA's new strategic direction as set
forth in TVA's Strategic Plan. When discussed with RM, RM stated

Inspection 2007-510I                                               Page 10
Office of the Inspector General                            Inspection Report


that the program does align with TVA's Strategic Plan. Specifically,
RM cited that contributions to TVA corporate overhead support TVA's
mission to provide low-cost electricity. In fact, Winning Performance
goals are tied to the RM External Contractual Services' contribution to
TVA corporate overhead. RM further stated the current Strategic Plan
does not provide detailed guidance for day-to-day operations, and the
internal/external business model, while not explicitly spelled out in the
new strategic plan, serves an enabler for many of the parts of the
plan. RM stated many other federal agencies have such programs to
serve as a multiplier for their intellectual capital in terms of a more
robust work force that can do similar things at the parent organization,
as well as for others, thus increasing their bench strength and
preserving their intellectual seed corn. According to RM, TVA's
External Contractual Services' program serves this function by
preserving engineering and scientific experts for TVA support in its
Science and Technology efforts, its Resource Conservation Recovery
Act (RCRA) obligations, future site clean-up activities (especially those
in Muscle Shoals), and experts for key regulatory compliance efforts.

Strategic Plan Focus
We found nothing in the strategic plan that explicitly indicates that
TVA's future success encompasses a self-sufficient organization
providing services for outside entities. Specifically, TVA's 2007
Strategic Plan focuses on TVA's core mission, businesses, and
increasingly challenging marketplace. As stated in the message from
the TVA President and Chief Executive Officer (CEO), “The Strategic
Plan captures the opportunities to leverage and realign TVA's
strengths and to address the customer, financial, operational, and
organizational initiatives necessary for future growth and success.”

The 2007 Strategic Plan states, “In developing the new strategic plan,
the Board determined that the TVA's current business structure best
enables TVA to carry out its integrated mission. The Strategic Plan
proposes to largely preserve the current structure but adapt it to
today's competitive environment. Key components of the business
structure are:




Inspection 2007-510I                                               Page 11
Office of the Inspector General                                          Inspection Report


1. Continued focus on a three-part integrated mission in energy, the
   environment, and economic development.
2. All aspects of the business area will continue to be funded from
   power revenues and financings.
3. Generation and transmission services will continue to be provided
   as part of a “bundled” package.
4. Demand for power will be met through a careful balance of self-
   reliance and partnership with others, limiting dependence on the
   market to keep costs competitive and reduce risk associated with
   short-term market volatility.
5. Financing obligations will be appropriate to the value of the
   assets.”

We also noted that the 2007 Strategic Plan states that while
leveraging existing strengths, TVA has a renewed focus on:

•     Customers
•     Variable length contracts with distributors
•     Prices that reflect product cost
•     Acquiring or partnering for supply
•     Long-term financial strength
•     Risk management and communication
•     Performance goals set by industry benchmarks

We further noted that the RM External Contractual Services' program
does not directly align with the mission, long-term goals, strategic
objectives, and performance indicators described in the TVA
Government Performance and Results Act (GPRA) Annual
Performance Plan For FY 2008.

TVA Benefits and Program Risks
RM has cited that the RM External Contractual Services' program
provides financial and other benefits to TVA, including revenue;
economic development; training for TVA employees at no (or low)
cost; no additional TVA labor costs; and retention (without cost to
TVA) of knowledge and expertise critical to TVA operations.7 We
believe, however, that the program subjects TVA to increased
monetary, reputational, and environmental risk. Not only could the
monetary impact of a large-scale event be substantial for the work
being performed, but also such an event related to the work could
cause TVA negative publicity and reputational damage.

7
    RM provided a listing showing over [Redacted] employees who have transferred from RM
    to TVA core operations since program inception.


Inspection 2007-510I                                                              Page 12
Office of the Inspector General                                              Inspection Report




The magnitude and type of work being performed increases TVA's risks.
For example, RM had 28 projects with the DOD that were active during
FY 2006 with a total contract ceiling of approximately [Redacted]. It
appears that 15 DOD contracts potentially contained scopes of work
related to chemical demilitarization and decontamination of hazardous
materials. The 15 contracts made up a total contract ceiling of
[Redacted].8 In addition:

•     TVA could be viewed as competing for private sector business.
      According to a Senior Manager, RM will not attempt to enter into
      an agreement to perform work if the scope of work has already
      been competed. While RM cited that no competitive bidding is
      allowed, they perform cold calls; attend trade shows; and
      advertise. According to a RM senior manager, the marketing
      activities are for federal business. However, we noted that RM
      screening criteria states that, “If for a competitive bid, who are
      potential primes, & how do they add value from client's viewpoint?”
      It also states, “What features(s) can RM offer client that
      competition cannot?”
•     Disposing of hazardous wastes under TVA's disposal contracts
      could increase TVA's clean-up costs in the event of a Superfund
      Site determination.
•     The program is revenue (i.e., volume) driven since Winning
      Performance goals are tied to the RM External Contractual
      Services' contribution to corporate overhead. This could increase
      perceptions about program competition with private companies.

Risk Mitigation Activities
RM stated they continue to improve the risk profile for the RM External
Contractual Services' program through completion of high-risk
projects, their strategy on the nature of future work, and their actions
and processes to mitigate financial risks. RM cites that risk is
managed by (1) entering into MOUs, where applicable; (2) transition of
external commitments away from “hands-on” Trades and Labor
chemical agent project to work that more closely mirrors TVA skill
needs; (3) managing projects in a safe and professional manner;
(4) incorporating written indemnity clauses into certain contracts in
order to shift responsibilities to other parties; and (5) reducing TVA
risk elsewhere by helping TVA maintain an intellectual capital base for
unique TVA work needs. Insurance is also purchased to cover

8
    In discussions with RM, RM stated that many of the higher risk projects have been
    completed or are coming to completion. The scope of work on future projects will involve
    more project management and technical assistance type activities.


Inspection 2007-510I                                                                  Page 13
Office of the Inspector General                                           Inspection Report


(a) errors and omissions, (b) general liability, and (c) automobile
collision. RM carries four different types of insurance to manage their
risk.

•     Pollution and Professional Liability – provides professional liability
      coverage for environmental consulting revenue contracts. The
      estimated annual premium was [Redacted].

      – RM has up to [Redacted] of coverage, per event, with a
        [Redacted] deductible for nonfederal work ([Redacted] annual
        aggregate).
      – RM has up to [Redacted] of coverage, per event, for other
        federal agency work with a [Redacted] deductible ([Redacted]
        annual aggregate).

•     General Liability – provides general liability coverage to TVA
      Service Groups: Central Labs, Heavy Equipment Division (HED),
      Power Service Shop (PSS), RM, and Energy Services Company
      groups for their external contracts. This policy provides [Redacted]
      coverage with a [Redacted] deductible. TVA also maintains
      excess coverage for up to [Redacted] per [Redacted] occurrence
      with a [Redacted] self-insured retention, per occurrence, that has
      to be paid by TVA. The estimated premium for RM's portion was
      [Redacted].
•     Commercial Auto – provides liability insurance for RM projects.
      RM has a [Redacted] primary and [Redacted] excess coverage.
      The estimated combined annual premium was [Redacted].
•     Special Crime Coverage – provides coverage for RM's
      international consulting work. RM pays approximately [Redacted]
      annually for a three-year prepaid policy with [Redacted] coverage.

While we agree that the purchase of insurance does mitigate some of
the risks, the cost of a large-scale event cannot be estimated, and
there is no insurance to mitigate reputational risk/damage. For
example, the environmental clean-up costs of two “mega-sites” have
averaged about $140 million for each site.9 In summary, the purchase
of insurance demonstrates that the RSO&E External Contractual
Services' program increases TVA's risks.

RM provided additional information to support its assertion that risk is
adequately mitigated. Specifically, RM provided documentation
showing that in updating the TVA Enterprise Risk Map:
9
    Study Pegs Superfund’s Cost at $14-$16 Billion Through 2009, Industry Headlines, The
    McGraw-Hill Companies, by Tom Ichniowski.


Inspection 2007-510I                                                               Page 14
Office of the Inspector General                                  Inspection Report




•      TVA, Secondary Business Activities Risk, had a low Likelihood and
       low Severity10 rating.
•      TVA Risk Management and Economic Analysis recommended
       reducing the severity number to the total insurance deductibles
       (approximately [Redacted].
•      The new severity number does not meet the threshold of an
       “enterprise risk” for dollar severity and could drop the services
       business off the TVA Enterprise Risk Map. RM advised, however,
       that the reputational risk is enough to keep this program on the
       map.

PROJECT DOCUMENTATION
Our review of 14 selected contracts/projects found instances where
(1) no contract could be provided for the project, (2) there is no
supporting documentation and/or justifications supporting key
decisions/evaluations required by RM policies and procedures, and/or
(3) documentation was incomplete. Specifically:

•      Procurement could not locate the contract files for five of the
       projects we selected. The combined contract ceilings for the five
       contracts totaled approximately $14.5 million.
•      RM could not provide a statement of work/scope of work or IWPs
       for two projects. The combined contract ceilings for the two
       contracts totaled approximately $6.2 million.
•      RM could not provide a proof of funding or Military
       Interdepartmental Purchase Requests (MIPR) for two projects.
       Total contract ceiling for these contracts was approximately
       $447,000.
•      No documentation was maintained to support key business
       decisions and evaluations. Some of the key processes and
       decisions required by RSO&E—SPP—19.1 that were not
       documented include:
       – A series of tests against established criteria must be used to
          disclose the advantages and disadvantages of each project
          opportunity.
       – A general set of questions must be answered to decide whether
         to assign a particular project to a project manager or a technical
         lead.


10
     Severity is defined as the potential impact to cash flow.


Inspection 2007-510I                                                     Page 15
Office of the Inspector General                           Inspection Report


    – The draft proposal must be reviewed by the Technical Review
      Team for technical adequacy and modification.
    – The Management Review Team must review the polished bid
      and proposal with the project manager and make the final
      recommendation on commitment of resources.
    – The Business Capture Team must review the Management
      Review Team's analysis and make a “Go or No-Go” decision.
    – Once published, the bid and proposal must receive final
      approval, commitment, and sign-off by the assigned Project
      Manager and the Senior Manager of RM. The bid and proposal
      is then appropriately transmitted to the potential client.


RECOMMENDATIONS
We recommend that the President and CEO:

•   Eliminate chemical agent work once current contractual
    commitments expire.
•   Direct RM officials to maintain adequate supporting documentation
    of projects and decisions made in regards to RSO&E—SPP—19.1,
    including maintaining contracts and proof of funding or Military
    Interdepartmental Purchase Requests.

Management's Response – The President and CEO provided
comments on a draft of this report. In response to our findings,
management plans to:

•   Eliminate the chemical agent work which carries the greatest risk
    potential for TVA once current contractual commitments with the
    DOD expire.
•   Conduct further review of the risks associated with the program
    and update the TVA risk assessment to reflect any changes.
•   Improve program documentation as TVA implements its new
    business management software in FY 2008.

(The complete text of the President and CEO's comments is provided
in Appendix A.)

Auditor's Comments – While we recommended the RM External
Contractual Services' program be terminated, RM plans to continue
work for (1) DOD that is deemed consistent with TVA's Strategic Plan
core responsibilities related to energy and environment and (2) the

Inspection 2007-510I                                               Page 16
Office of the Inspector General                          Inspection Report


Electric Power Research Institute, the Department of Energy, and
distributors of TVA power related to energy, water, and environmental
tasks. We agree that management actions to eliminate chemical
agent work will eliminate the greatest risk potential within the RSO&E
External Contractual Services program. Also, the other planned
actions will strengthen the program. Therefore, we revised our
recommendation accordingly and take no exceptions to
management's comments.




Inspection 2007-510I                                             Page 17
APPENDIX
Page 1 of 1
